THOMAS R. BRAY
ATTORNEY AT LAW
1318 Glourie Drive
HOUSTON, TEXAS 77055
(713) 827-1760 (713) 827-7510 (Fax)
Thomas R. Bray
tom@brayandassociates.com

June 12, 2021
By Electronic Filing
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Harris County Hospital District v. Public Utility Commission of Texas and Southwestern
Bell Telephone Company d/b/a AT&T Texas, No. 20-1717

Dear Mr. Harris:
I represent petitioner Harris County Hospital District in the above-referenced case. In accordance
with Rule 37.2(a) of the Rules of the Supreme Court of the United States, petitioner hereby grants
blanket consent to the filing of amicus curiae briefs in support of either or neither party in this case.
Sincerely,
/s/ Thomas Roy Bray
Thomas Roy Bray
Counsel of Record
tom@brayandassociates.com
Counsel for Petitioner
cc: Counsel for Respondents
Via email

